No. 20-7198
IN THE SUPREME COURT OF THE UNITED STATES
_________________
BENJAMIN EDWARD HENRY BRADLEY, PETITIONER
v.

UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 10th day of May 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 10, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-7198
BRADLEY, BENJAMIN EDWARD HENRY
USA

MELISSA MARTIN SALINAS
FEDERAL APPELLATE LITIGATION CLINIC
801 MONROE STREET
363 LEGAL RESEARCH BUILDING
ANN ARBOR, MI 48109
734-763-4341
SALINASM@UMICH.EDU

